      Department of Homeland Security




     Independent Review of U.S. Coast Guard’s Reporting
             of FY 2012 Drug Control Obligations




OIG-13-31                                     January 2013

                             OtrFICE O,.' INSPECfOR GENERAL



                                        JAM 291013

MeM ORA NDUM FOR:                Rear Admira l Ste ph en P. Metruck
                                 Chief Financia l Office r
                                 U.S. COUI Guard

FROM:                            Anne L Ric.hards      tl'lAJ;lt.L.. ,4
                                 AsslSliInl lnspec10r Genera l for Audits

SUBJ ECT:                        Indeptndenf Rewew of u.s. Coos! Guonf's Reporting 0/
                                 FY 2011 Drvl) Control Obi,golions

Attar.:lled lor you r informal lon Is our flOilI reporl, Independent Review oj U.s. Coost
Guord's Reportin(1oJ FY 1011 Drug Control O/)//(1otioru. U. S. Co;.,.1 Guard's management
prepared the T~ bl e of FY 2012 Drug Control Oblig~ti ons ~n d related disclosures 10
comply w ith the requ ire menh of the Office of Natio nal Drug Control Po licy Circu lar,
Orug Control Accounting, dated May 1, 2001.

we contrlcted with tn.:. independent public !lCCO<.Inting l irm KPMG lLP to perlorm the
review. KPMG LLP is respOl1sible for the attached Independent AlXXlunlilntf Report,
dated Januarv 22, 20U, and the conclusion! upreued in it. We do not e~pren in
opinion on the Table of FY2012 Drug Conlrol Obligations and related disclosu res. this
report amlilins roo recommendatloni.

Consisten t with our resp~lbllitY under t he Jl'ISpedor Gnlf>fDIAct, we are providing
copies of our report to apprOflri,ne cOfl8r~loOil I committees with rwe rs,sht and
approprlillion responsibility ove r the Oeparlment of Homeland Security. we will post
the report on our web!.ite for public dissemination.

~ I ease ca ll me wit h any quest ions, or your staff ma y co ntact M~ri<. Be ll, Deputy AsslSliint
Inspecior Gene ral for Audits,   ~t   (202) 25<\-<\ 100.

Attachment
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                    Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of FY 2012 Drug Control Obligations and related disclosures
of the U.S. Department of Homeland Security’s (DHS) United States Coast Guard (USCG) for the year
ended September 30, 2012. We have also reviewed the accompanying management’s assertions for the
year ended September 30, 2012. USCG’s management is responsible for the Table of FY 2012 Drug
Control Obligations, related disclosures, and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Table of Prior Year Drug
Control Obligations, related disclosures, and management’s assertions. Accordingly, we do not express
such an opinion.

Management of USCG prepared the Table of FY 2012 Drug Control Obligations, related disclosures, and
management’s assertions to comply with the requirements of the Office of National Drug Control Policy
(ONDCP) Circular, Drug Control Accounting, dated May 1, 2007 (the Circular).

Based on our review, nothing came to our attention that caused us to believe that (1) the Table of FY 2012
Drug Control Obligations and related disclosures for the year ended September 30, 2012 are not presented,
in all material respects, in conformity with the Circular, or that (2) management’s assertions referred to
above are not fairly stated, in all material respects, based on the criteria set forth in the Circular.

This report is intended solely for the information and use of the management of DHS and USCG, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 22, 2013




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
u.s. Department of                   Commandant                      2100 Second Street, S.w.
Homeland Security                    United States Coast Guard       Washington, DC 20593-0001
                     1~m.IIIII~
                                                                     Staff Symbol: CG-821
                                                                     Phone: (202) 372-3513
United States                                                        Fax: (202)372-2311
Coast Guard                                                          Email:John.F.McCarthy@uscg.mil




                                                                   7110

                                                                     JAN 2 2 2013
Ms. Sandra John
Department of Homeland Security
Director of Financial Management
Office of the Inspector General


Dear Ms. John,

In accordance with the Office of National Drug Control Policy Circular: Annual Accounting of
Drug Control Funds dated May 1,2007, enclosed is the Coast Guard's FY 2012 Detailed
Accounting Submission.

If you require further assistance on this information, please contact LCDR John McCarthy at
(202) 372-3513.

                                             Sincerely,


                                            ~   ~~AffVS«
                                             TI~~SON
                                            A. J.
                                            Captain, U.S. Coast Guard
                                            Chief, Office of Budget and Programs


Enclosures:
       (1) USCG FY 2012 Detailed Accounting Submission




Copy: DHS Budget Office
                            DEPARTMENT OF HOMELAND SECURITY 

                                 UNITED STATES COAST GUARD 

                    Detailed Accounting Submission of FY 2012 Drug Control Funds



   DETAILED ACCOUNTING SUBMISSION
A. Table of FY 2012 Drug Control Obligations

                        RESOURCE SUMMARY
                        (Dollars in Millions)                                   2012 Actual
            Drug Resources by Drug Control Function:                            Obligations
               • Interdiction                                                     $1,296.14
               • Research and Development                                            $5.579
                                           Total Resources by Function           $1,301.719

            Drug Resources by Budget Decision Unit:
               • Operating Expenses (OE)                                            $852.850

                •    Reserve Training (RT)                                           $16.007

                •    Acquisition, Construction, and Improvements (AC&I)             $427.283

                •    Research, Development, Test and Evaluation (RDT&E)               $5.579

                                             Total Drug Control Obligations       $1,301.719

   1) Drug Methodology
   In FY 2000, a methodology known as the Mission Cost Model (MCM) was developed to present
   United States Coast Guard (Coast Guard) missions using activity-based cost accounting principles.
   The MCM is an estimate of operational mission costs allocated across the Coast Guard’s 11
   mission/programs. The information reported is timely and is derived from an allocation process
   involving the Coast Guard’s financial statement information and operational employment data.

   The Coast Guard is required to report its drug control funding to the Office of National Drug Control
   Policy (ONDCP) in four appropriations, categorically called decision units. The Coast Guard’s drug
   control funding estimates are computed by examining the decision units that are comprised of:
   Operating Expenses (OE); Reserve Training (RT); Acquisition, Construction, and Improvement
   (AC&I); and Research, Development, Test, and Evaluation (RDT&E). Each decision unit contains
   its own unique spending authority and methodology.




                                                     1

1) Drug Methodology (cont.)

AC&I includes funding that remains available for obligation up to five years after appropriation and
RDT&E includes funding which does not expire. Unless stipulated by law, OE and RT funding
must be spent in the fiscal year it is appropriated. The mechanics of the MCM methodology used to
derive the drug control information for each decision unit's drug control data is derived as follows.

Mission Cost Allocations

OE funds are used to operate Coast Guard facilities; maintain capital equipment; improve management
effectiveness; and recruit, train, sustain, and compensate, an active duty military and civilian workforce.
Within the OE and RT decision units the direct, support, and overhead costs of Coast Guard assets are
coupled with the employment of these assets across the Coast Guard’s 11 statutory missions.
Obligations within the drug interdiction program are derived by allocating a share of the actual
obligations of assets and activities based upon the percent of time aircraft, cutters, and boats spent
conducting drug interdiction activities (as reported in web-based data collection systems).

The two chief input drivers to the MCM are:
•	 The Coast Guard’s Standard Rate and User Fee (SRUF) - The SRUF model calculates the total cost,
   including direct, support and overhead, of operating the Coast Guard’s assets, as well as missions or
   services that the Coast Guard performs but does not have related standard rates or user fees.
•	 Abstract of Operations (AOPS) and Aviation Logistics Management Information System (ALMIS) -
   Cutter and boat activities (i.e. underway hours) are captured by AOPS system while aircraft operational
   hours (flight time) are entered into ALMIS. Expenses allocated to missions or services, and not assets,
   are driven to each of the employment categories by percentages. Those percentages are determined by
   surveys of those activities (e.g. Marine Safety units).

The Coast Guard tracks the resource hours spent on each of the 11 Coast Guard statutory missions
using AOPS and ALMIS. This data is then used to determine the amount of time each asset class
spends conducting each Coast Guard mission as a ratio of the total resource hours spent on all missions.
In addition, using financial data gathered from over 3,000 cost centers around the United States along
with the AOPS and ALMIS information, the Coast Guard is able to allocate OE costs to each of the 11
statutory missions consisting of: Drug Interdiction; Migrant Interdiction; Ports, Waterways and Coastal
Security; Other Law Enforcement; Defense Readiness; Search and Rescue; Marine Safety; Ice
Operations; Marine Environmental Protection; Living Marine Resources; and Aids to Navigation.

By design, the MCM is based on the OE decision unit. While mission-program spreads derived from
MCM can be directly applied to OE and RT decision units, AC&I and RDT&E decision units must be
calculated separately. This is due to the structure of the AC&I and RDT&E decision units, which are
presented as individual projects in the Coast Guard’s budget submission. Within AC&I and RDT&E,
individual projects are allocated to missions based on an established profile (largely based on
utilization). The drug interdiction attributions of each of these projects are then combined to determine
the total contribution to the drug interdiction mission.

The program percentages derived from the MCM are applied to OE, RT, AC&I and RDT&E decision
units per the above methodology (see Attachments A, B, C and D, respectively). Obligation data is
derived from the final financial accounting Report on Budget Execution (SF-133).


                                                  2

2) Methodology Modifications

The methodology described above is consistent with the previous year.

3) Material Weaknesses or Other Findings

As identified in the Department of Homeland Security (DHS) Chief Financial Officers (CFO) Act of
1990 audit and feedback provided in the FY 2012 Independent Auditors’ Report, the Coast Guard
contributed to Departmental material weaknesses in the following internal control areas: financial
reporting, property management, and environmental and other liabilities. Despite these internal
controls material weaknesses, the Coast Guard can provide reasonable assurance that obligations data
presented is fairly reported.
The Coast Guard’s Financial Strategy for Transformation and Audit Readiness (FSTAR) continues to
guide the Mission Action Plans that strengthen the internal controls leading to assurance over financial
information. This effort seeks to attack the root causes and implement long term solutions of the
identified material weaknesses and other financial management issues. As of November 15, 2012, the
Coast Guard has helped the Department of Homeland Security achieve a qualified audit opinion on all
the FY 2012 DHS financial statements.

Per the DHS FY 2012 Annual Financial Report, the Coast Guard made significant improvements to
previously reported material weaknesses contributing to the progress of strengthening Department-wide
internal controls over financial reporting. Specifically, Coast Guard corrective actions significantly
reduced risk related to financial scripts and Fund Balance with Treasury reconciliations resulting in
reducing the severity of IT Controls and System Functionality and fully remediating weaknesses related
to Fund Balance with Treasury. In addition, the U.S. Coast Guard implemented the Audit Command
Language as a mitigating control and reduced the severity of weaknesses related to Budgetary
Accounting.
4) Reprogrammings or Transfers

During FY 2012, the Coast Guard had no reports of transfers or reprogramming actions affecting drug
related budget resources in excess of $1 million.

5) Other Disclosures
The following provides a synopsis of the United States Coast Guard’s FY 2012 Drug Control Funds
reporting which describes:

1.	 The agency’s overall mission and the role of drug interdiction efforts within the Coast Guard's
    multi-mission structure; and
2.	 The Coast Guard’s Drug Budget Submission.

Coast Guard Mission

The Coast Guard is a military service with mandated national security and national defense
responsibilities and the United States' leading maritime law enforcement agency with broad, multi­
faceted jurisdictional authority. Due to the multi-mission nature of the Coast Guard and the necessity to


                                                  3

   allocate the effort of a finite amount of assets, there is a considerable degree of asset “cross-over”
   between missions. This cross-over contributes to the challenges the Coast Guard faces when reporting
   costs for its mission areas.

   Coast Guard's Drug Budget Submission

   In the annual National Drug Control Strategy (NDCS) Budget Summary, all agencies present their drug
   control resources broken out by function and decision unit. The presentation by decision unit is the one
   that corresponds most closely to the Coast Guard’s congressional budget submissions and
   appropriations. It should be noted and emphasized that the Coast Guard does not have a specific
   appropriation for drug interdiction activities. As such, there are no financial accounting lines for each
   of Coast Guard’s 11 statutory missions. All drug interdiction operations, capital improvements, reserve
   support, and research and development efforts are funded out of general Coast Guard appropriations.

   For the most part, the Coast Guard drug control budget is a reflection of the Coast Guard’s overall
   budget. The Coast Guard’s OE appropriation budget request is incremental, focusing on the changes
   from the prior year base brought forward. The Coast Guard continues to present supplementary budget
   information through the use of the MCM, which allocates base funding and incremental requests by
   mission.

   This general purpose MCM serves as the basis for developing drug control budget estimates for the OE
   and RT appropriations and provides allocation percentages used to develop the drug control estimates
   for the AC&I and RDT&E appropriations and the process is repeatable. Similarly, this is the same
   methodology used to complete our annual submission to the Office of National Drug Control Policy
   (ONDCP) for the NDCS Budget Summary.


B. Assertions

   1) Obligations by Budget Decision Unit

   N/A. As a multi-mission agency, the Coast Guard is exempt from this reporting requirement.

   2) Drug Methodology

   The Coast Guard does not have a discrete drug control appropriation and its financial systems are not
   structured to accumulate accounting data by operating programs or missions areas. However, the
   methodology used to produce the drug interdiction funding in this report is repeatable and is based on
   the attribution of direct, support and overhead costs proportionally allocated to reflect historical mission
   employment data presented in AOPS. This methodology is consistently used by the Coast Guard to
   develop annual budget year submissions and mission related reports. These submissions include:
   Resource Allocation Proposal (RAP), Resource Allocation Decision (RAD) and the Office of
   Management and Budget’s (OMB) MAX budget update of Coast Guard’s Congressional Budget
   submissions and the DHS CFO Statement of Net Cost report. The criteria associated to this assertion
   are as follows:




                                                      4

   a)	 Data – The percentage allocation results derived from its MCM methodology are based on the
       most current financial and AOPS data available.

   b)	 Other Estimation Methods – No other estimation methods are used.

   c)	 Financial Systems – Financial data used in this methodology are derived from the Core
       Accounting system (CAS) and Surface Forces Logistics Center (SFLC) systems. No other
       financial system or information is used in developing program or mission area allocations.
       Although the Coast Guard has not fully implemented corrective actions to remediate
       weaknesses identified by the independent auditors during the annual DHS CFO Act audits, the
       Coast Guard can provide reasonable assurances to the effectiveness of internal controls over
       budgetary resource management. To mitigate the risk of inaccurate or incomplete accounting
       records, compensating controls including transactional level ACL tie points analytics,
       substantive testing over budget authority and reimbursable agreements, fund controls enacted in
       field-level financial systems, and quarterly reviews over open transactions significantly
       minimize the risk of potential misstatements.

3) Application of Drug Methodology

The methodology disclosed in this section was the actual methodology used to generate the drug control
obligation funding table required by ONDCP Circular: Drug Control Accounting May 1, 2007 Section
6A. Documentation on each decision unit is provided.

4) Reprogrammings or Transfers

During FY 2012, Coast Guard had no transfers or reprogramming actions affecting drug-related budget
resources in excess of $1 million.

5)	 Fund Control Notices

ONDCP did not issue the Coast Guard a Fund Control Notice for FY 2012.




                                                5

                                                                      Attachment A


                         OPERATING EXPENSES (OE)

                        MISSION COST MODEL OUTPUT:

                                                            (dollars in thousands)
                                                                   FY 2012
                                                          Obligations      % of total
 1. Search and Rescue (SAR)                                  812,482         11.53%

 2. Marine Safety (MS)                                       654,840          9.29%

 3. Aids to Navigation (ATON)                              1,355,514         19.23%

 4. Ice Operations (IO)                                        95,824         1.36%

 5. Marine Environmental Protection (MEP)                    169,543          2.41%

 6. Living Marine Resources (LMR)                            633,288          8.98%

 7. Drug Interdiction                                        852,850         12.10%

 8. Other Law Enforcement (OTH-LE)                             99,508         1.41%

 9. Migrant Interdiction                                     488,870          6.94%

10. Ports, Waterways & Coastal Security (PWCS)             1,531,624         21.73%

11. Defense Readiness                                        354,291          5.03%
                                    Total OE Obligations $ 7,048,634          100%




                                            6

                                                                     Attachment B



                            RESERVE TRAINING (RT)

                         MISSION COST MODEL OUTPUT:

                                                           (dollars in thousands)
                                                                  FY 2012
                                                         Obligations      % of total
 1. Search and Rescue (SAR)                                   15,249        11.53%

 2. Marine Safety (MS)                                        12,291         9.29%

 3. Aids to Navigation (ATON)                                 25,441        19.23%

 4. Ice Operations (IO)                                        1,799         1.36%

 5. Marine Environmental Protection (MEP)                      3,182         2.41%

 6. Living Marine Resources (LMR)                             11,886         8.98%

 7. Drug Interdiction
                                        16,007        12.10%

 8. Other Law Enforcement (OTH-LE)
                          (OTH LE)
                            1 868
                                                               1,868         11.41%
                                                                                41%

 9. Migrant Interdiction                                       9,176         6.94%

10. Ports, Waterways & Coastal Security (PWCS)                28,747        21.73%

11. Defense Readiness                                          6,650         5.03%
                                    Total RT Obligations $   132,295         100%




                                            7

                                                                    Attachment C



 ACQUISITION, CONSTRUCTION and IMPROVEMENTS
         (AC&I) MISSION COST MODEL OUTPUT:
                                                          (dollars in thousands)
                                                                 FY 2012
                                                        Obligations      % of total

 1. Search and Rescue (SAR)                                 99,652           8.08%

 2. Marine Safety (MS)                                        7,280          0.59%

 3. Aids to Navigation (ATON)                               35,522           2.88%

 4. Ice Operations (IO)                                     16,862           1.37%

 5. Marine Environmental Protection (MEP)                     9,510          0.77%

 6. Living Marine Resources (LMR)                          241,155          19.55%

 7. Drug Interdiction                                      427,283          34.64%

 8. Other Law Enforcement (OTH-LE)                          66,980           5.43%

 9. Migrant Interdiction                                   102,194           8.28%

10. Ports, Waterways & Coastal Security (PWCS)             105,978           8.59%

11. Defense Readiness                                      121,252           9.83%
                                Total AC&I Obligations $ 1,233,669            100%




                                            8

                                                                    Attachment D


  RESEARCH, DEVELOPMENT, TEST and EVALUATION
        (RDT&E) MISSION COST MODEL OUTPUT:
                                                         (dollars in thousands)
                                                                FY 2012
                                                      Obligations       % of total
 1. Search and Rescue (SAR)                                 8,094          21.15%

 2. Marine Safety (MS)                                      3,400           8.88%

 3. Aids to Navigation (ATON)                               2,007           5.24%

 4. Ice Operations (IO)                                       650           1.70%

 5. Marine Environmental Protection (MEP)                   6,640          17.35%

 6. Living Marine Resources (LMR)                           2,531           6.61%

 7. Drug Interdiction
                                      5,579          14.58%

 8. Oth
    Otheer Law Enforcem
                   rcemen
                       entt (OTH
                               H-LE)

                                 LE)                          683           1.78%

 9. Migrant Interdiction                                    2,554           6.67%

10. Ports, Waterways & Coastal Security (PWCS)              4,744          12.40%

11. Defense Readiness                                       1,384           3.62%
                           Total RDT&E Obligations 1/ $    38,267            100%




                                            9

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   U.S. Coast Guard

   Commandant
   Chief Financial Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-13-31
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
